App I-1
Appendix I
United States v. Singh
United States Court of Appeals for the Ninth
Circuit
March 13, 2019, Argued and Submitted, San
Francisco, California; May 16, 2019, Filed
No. 17-50337, No. 17-50387
Reporter
924 F.3d 1030 *; 2019 U.S. App. LEXIS 14466 **;
2019 WL 2135166
UNITED STATES OF AMERICA, PlaintiffAppellee, v. RAVNEET SINGH, AKA Ravi Singh,
Defendant-Appellant.UNITED
STATES
OF
AMERICA, Plaintiff-Appellee, v. JOSE SUSUMO
AZANO MATSURA, AKA Mr. A, AKA Mr. Lambo,
Defendant-Appellant.
Subsequent History: Rehearing denied by,
Rehearing, en banc, denied by United States v. Singh,
2019 U.S. App. LEXIS 22636 (9th Cir. Cal., July 30,
2019)
Motion granted by, Stay granted by United States
v. Singh, 2019 U.S. App. LEXIS 23503 (9th Cir. Cal.,
Aug. 6, 2019)
Prior History: [**1] Appeal from the United
States District Court for the Southern District of
California. D.C. No. 3:14-cr-00388-MMA-2, D.C. No.
3:14-cr-00388-MMA-1. Michael M. Anello, District
Judge, Presiding.
United States v. Matsura, 2017 U.S. Dist. LEXIS
142328 (S.D. Cal., Aug. 31, 2017)
Counsel: Harold J. Krent (argued), IIT ChicagoKent College of Law, Chicago, Illinois; Todd W.

App I-2
Burns, Burns & Cohan, San Diego, California; for
Defendant-Appellant Ravneet Singh.
Charles M. Sevilla (argued), San Diego, California,
for Defendant-Appellant Jose Susumo Azano
Matsura.
Helen [**6] H. Hong (argued), Mark Pletcher,
Billy Joe McLain, and Phillip L.B. Halpern, Assistant
United States Attorneys; Robert S. Brewer Jr., United
States Attorney; United States Attorney's Office, San
Diego, California; for Plaintiff-Appellee.
Charles H. Bell Jr. and Terry J. Martin, Bell
McAndrews & Hiltachk LLP, Sacramento, California,
for Amici Curiae California Campaign and Election
Law Attorneys.
Judges: Before: MILAN D. SMITH, JR., PAUL J.
WATFORD, and ANDREW D. HURWITZ, Circuit
Judges. Opinion by Judge Milan D. Smith, Jr.
Opinion by: Milan D. Smith, Jr.
Opinion
[*1040] M. SMITH, Circuit Judge:
Jose Susumo Azano Matsura aspired to
participate in developing San Diego and turning it
into the Miami Beach of the west coast. To help
achieve this goal, Azano and his co-conspirators
sought to influence local politicians during the 2012
San Diego election cycle by providing campaign
contributions. However, as a foreign national, Azano
was prohibited by federal law from donating or
contributing to American campaigns.
A jury convicted Azano and Ravneet Singh of
various crimes stemming from the campaign
contributions; Azano was also convicted of violating

App I-3
federal firearms law. Azano and Singh (together,
Appellants) now appeal, raising [**7] a litany of
constitutional, statutory, and procedural arguments.
Although we affirm the district court in large part, we
reverse their convictions on count thirty-seven
(obstruction of justice in violation of 18 U.S.C. § 1519).
FACTUAL AND PROCEDURAL BACKGROUND
I. Factual Background
Azano ran a successful technology business based
in Mexico City, but maintained a family home in San
Diego. Although Azano's wife and children are United
States citizens, he is neither a naturalized United
States citizen nor a permanent resident. Azano, a
citizen of Mexico, entered the United States in
January 2010 on a B1/B2 visa, which allows visitors
entry for pleasure or business if the noncitizen
"intends to leave the United States at the end of the
temporary stay." 22 C.F.R. § 41.31(a)(1). Azano
traveled weekly back and forth from San Diego to
Mexico City for business purposes.
At trial, the government introduced evidence that
Azano had an interest in developing San Diego, and
particularly the Chula Vista waterfront area. The
government introduced testimony that in order to
achieve his development goals, Azano believed that he
needed government cooperation, which included a
relationship with the mayor of San Diego. Azano had
previously formed [**8] such relationships in Mexico
by making campaign contributions to candidates for
various offices. Azano set about implementing a
similar strategy in San Diego. With the aid of his coconspirators, Azano sought to secure the favor of San

App I-4
Diego mayoral candidates who he believed would
support his development plans. Azano first supported
Bonnie Dumanis during the 2012 primary elections,
but when she lost, he supported Bob Filner in the
general election. Azano did so despite the fact that
federal law prohibits "a foreign national, directly or
indirectly," from making "a contribution or donation
of money or other thing of value . . . in connection with
a Federal, State, or local election." 52 U.S.C. §
30121(a).
Azano's funding scheme involved a number of
people. Ernie Encinas, head of Azano's security team,
was a former San Diego police officer with useful
political connections who helped represent Azano's
interests within the two campaign organizations.
Marco Polo Cortes provided lobbying connections and
helped facilitate initial meetings with the two
campaign staffs. Mark Chase was a local car dealer
and Azano's "good friend," who arranged straw donors
to donate to the Dumanis mayoral campaign, and
later disguised [**9] Azano's donations to Filner's
political action committee (PAC) and other entities by
writing checks from his personal and business
accounts. Edward Susumo Azano Hester, Azano's son,
recruited straw donors to give to the Dumanis
campaign.
Singh was the CEO of ElectionMall, a media
platform offering a "one-stop sho[p] [*1041] of
technology to candidates and political parties running
for office." Singh first worked with Azano on a
Mexican presidential campaign in 2011. This
professional relationship continued into the mayoral
campaigns of Dumanis and Filner. Aaron Rosheim,
the former director of web strategy at ElectionMall,

App I-5
testified that Azano paid ElectionMall for work on the
San Diego campaigns. For this work, Singh billed
Azano's Mexican companies, using the code names
"Betty Boop" for Dumanis's campaign and "Plastic
Man" for Filner's campaign. Evidence also suggested
that Singh tried to conceal any paper trail of his work
for Azano. An internal ElectionMall email from Singh
with the subject title "OLD invoices for Mr. A" stated:
"Please don't have cynthia or anyone else send things
with a code name. And then list the clients name in a
[sic] email. That is stupid and dangerous for me."
Additionally, [**10] in response to an email from
Encinas about forming a PAC for Dumanis, Singh
stated, "I am not responding to this email. Bec[au]se
of the legal ram[i]fications."
II. Procedural Background
A federal grand jury returned a Third Superseding
Indictment
(the
Indictment)
charging
four
individuals—Azano, Singh, Cortes, and Hester—and
one corporate defendant, ElectionMall, with illegally
conspiring to commit campaign finance fraud in the
2012 San Diego mayoral elections. The government
later dropped ElectionMall as a defendant and the
four individuals were tried together. After trial,
Cortes and Hester reached plea agreements and pled
guilty to participating in the campaign contribution
scheme. Encinas and Chase, who had been charged as
co-conspirators in a separate indictment, both also
pled guilty to participating in the campaign
contribution scheme.
Appellants were charged in count one of the
Indictment with conspiracy to violate the Federal
Election Campaign Act (FECA), 52 U.S.C. §§

App I-6
30109(d)(1)(A) and 30121(a)(1)(A),1 for unlawful
campaign donations by a foreign national, and
conspiracy to falsify campaign records, in violation of
18 U.S.C. § 1519. Both were charged in count three
with the substantive offense of making unlawful
campaign donations [**11] as a foreign national.
Singh was charged in counts thirty-two and thirtyseven with the substantive offense of falsifying
campaign records in violation of 18 U.S.C. § 1519.
Azano was similarly charged in counts five through
thirty-seven with the substantive offense of falsifying
campaign records. Finally, Azano was charged in
count four with making a conduit contribution in
connection with a federal election, in violation of 52
U.S.C. §§ 30109(d)(1)(A) and 30122, and in count
thirty-nine with unlawfully possessing a firearm as
an alien in violation of 18 U.S.C. § 922(g)(5)(B).
A jury found Appellants guilty on all the counts
with which they were respectively charged. On
October 27, 2017, the district court sentenced Azano
to three years in custody and three years of
supervised release, and on August 31, 2017 sentenced
Singh to fifteen months in custody and three years of
supervised release. Appellants timely appealed.
ANALYSIS
Appellants raise a number of claims contesting
their convictions. We address each in turn.

1 Previously

codified at 2 U.S.C. § 441e.

App I-7
I
Appellants first argue that 52 U.S.C. § 30121 is
unconstitutional on two grounds: (1) it exceeds
Congress's jurisdiction
[*1042]
to legislate
concerning state and local elections, and (2) it violates
foreign nationals' First Amendment speech rights. We
review the constitutionality of [**12] a statute de
novo. United States v. Jones, 231 F.3d 508, 513 (9th
Cir. 2000).
We first consider the genesis of § 30121. As
donations and contributions have grown more
important to the campaign process, so too has concern
over foreign influence in American elections. In 1966,
Congress amended the Foreign Agents Registration
Act to prohibit foreign governments and entities from
contributing to American political candidates. See
Pub. L. No. 89-486, § 8, 80 Stat. 244, 248-49.
Subsequently, Congress banned all foreign nationals2
from making such contributions. See Federal Election
Campaign Act Amendments of 1974, Pub. L. No. 93443, § 101(d), 88 Stat. 1263, 1267.
Still, suspicions of foreign influence in American
elections remained a pervasive concern. Following the
1996
election,
the
Senate
Committee
on
Governmental Affairs investigated foreign campaign
contributions. See S. Rep. No. 105-167 (1998). The
Committee Report identified efforts by agents of the
People's Republic of China to "influence U.S. policies
and elections through, among other means, financing
election campaigns." Id., pt. 1, at 47. The report
2A

"foreign national" is "a foreign principal" or "an individual
who is not a citizen of the United States or a national of the
United States . . . and who is not lawfully admitted for
permanent residence." 52 U.S.C. § 30121(b).

App I-8
focused chiefly on federal elections, but also referred
to a "seeding program" to develop individuals to run
in state and local elections. Id., pt. 2, at 2509.
In response to the Committee Report, Congress
enacted the Bipartisan Campaign Reform Act of 2002
(BCRA), which amended FECA and [**13] further
limited foreign nationals' ability to participate in
elections. See Pub. L. No. 107-155, § 303, 116 Stat. 81,
96. As amended, § 30121(a) currently states,
It shall be unlawful for—
(1) a foreign national, directly or indirectly, to
make—
(A) a contribution or donation of money or other
thing of value, or to make an express or implied
promise to make a contribution or donation in
connection with a Federal, State, or local election;
(B) a contribution or donation to a committee of a
political party; or
(C) an expenditure, independent expenditure, or
disbursement for an electioneering communication . .
.
52 U.S.C. § 30121(a).
A
Appellants challenge whether Congress has the
power to prohibit foreign nationals from donating and
contributing to state and local elections. Due to the
federal government's plenary power over foreign
affairs and immigration, we find that Congress has
such a power.
The federal government has the "inherent power
as sovereign to control and conduct relations with
foreign nations." Arizona v. United States, 567 U.S.

App I-9
387, 395, 132 S. Ct. 2492, 183 L. Ed. 2d 351 (2012);
see also United States v. Curtiss-Wright Exp. Corp.,
299 U.S. 304, 318-19, 57 S. Ct. 216, 81 L. Ed. 255
(1936). The Constitution grants the federal
government an "undoubted power over the subject of
immigration and the status of aliens." Arizona, 567
U.S. at 394; see also U.S. Const. art. I, § 8, cl. 4
(granting Congress the power to "establish an
uniform Rule of Naturalization"). Thus, where, as
here,
Congress [**14]
has
made
a
judgment [*1043] on a matter of foreign affairs and
national security by barring foreign nationals from
contributing to our election processes, it retains a
broad power to legislate. The Supreme Court has
recognized that "any policy toward aliens is vitally
and intricately interwoven with contemporaneous
policies in regard to the conduct of foreign relations,
the war power, and the maintenance of a republican
form of government." Harisiades v. Shaughnessy, 342
U.S. 580, 588-89, 72 S. Ct. 512, 96 L. Ed. 586 (1952).
A prohibition on campaign donations and
contributions by foreign nationals is necessary and
proper to the exercise of the immigration and foreign
relations powers. See U.S. Const. art. I, § 8, cl. 18.
Accordingly, Congress was within its power when it
acted to protect the country's political processes after
recognizing the susceptibility of the elections process
to foreign interference.3
Appellants assert that because the Constitution
"intended to preserve to the States the power . . . to
establish and maintain their own separate and
3 Importantly,

§ 30121(a)(1) bars only foreign nationals from
making donations and contributions and does not reach the
actions of American citizens or permanent residents.

App I-10
independent governments," Congress may not
legislate over state and local elections at all. Oregon
v. Mitchell, 400 U.S. 112, 124, 91 S. Ct. 260, 27 L. Ed.
2d 272 (1970) (opinion of Black, J.). In Mitchell, the
Court found unconstitutional a provision of the
Voting Rights Act that set the voting age for state and
local elections [**15] at eighteen. Id. at 117-18.
Similarly, in James v. Bowman, the Court struck
down a federal statute criminalizing bribery in state
and local elections. 190 U.S. 127, 142, 23 S. Ct. 678,
47 L. Ed. 979 (1903).
We find these cases inapposite. They discuss
Congress's authority to regulate state elections as
they relate to citizens of the United States. In
contrast, § 30121(a)(1) regulates only foreign
nationals, which is within the ambit of Congress's
broad power to regulate foreign affairs and condition
immigration. Therefore, the case before us is readily
distinguished from Mitchell and James.
Accordingly, we hold that Congress acted within
its constitutional authority in enacting § 30121(a).
B
We next consider Appellants' First Amendment
challenge. The district court determined § 30121(a)
does not violate foreign nationals' First Amendment
rights, concluding that "it is bound by [the decision in
Bluman v. FEC, 800 F. Supp. 2d 281 (D.D.C. 2011),
aff'd, 565 U.S. 1104, 132 S. Ct. 1087, 181 L. Ed. 2d
726 (2012)] due to the Supreme Court's summary
affirmance." Appellants argue that we are not bound
by the summary affirmance, because "a summary
affirmance by [the Supreme] Court is a 'rather
slender reed' on which to rest future decisions." Morse

App I-11
v. Republican Party of Va., 517 U.S. 186, 203 n.21, 116
S. Ct. 1186, 134 L. Ed. 2d 347 (1996) (quoting
Anderson v. Celebrezze, 460 U.S. 780, 784 n.5, 103 S.
Ct. 1564, 75 L. Ed. 2d 547 (1983)). Further, because
Bluman considered foreign national participation in a
federal election—not, as here, a state or local
election—Appellants argue that the summary
affirmance poses [**16] no bar.
"[T]he Supreme Court's summary affirmances
bind lower courts, unless subsequent developments
suggest otherwise. . . . Although . . . the Supreme
Court is more willing to reconsider its own summary
dispositions than it is to revisit its prior opinions, this
principle does not release the lower courts from the
binding
effect
of
summary
affirmances."
United [*1044] States v. Blaine Cty., 363 F.3d 897,
904 (9th Cir. 2004) (citing Hicks v. Miranda, 422 U.S.
332, 344-45, 95 S. Ct. 2281, 45 L. Ed. 2d 223 (1975)).
And, although "[t]he precedential effect of a summary
affirmance extends no further than the precise issues
presented and necessarily decided by those actions,"
Green v. City of Tucson, 340 F.3d 891, 902 (9th Cir.
2003) (quoting Anderson, 460 U.S. at 784 n.5),
Bluman did decide the precise issue present in this
case. In Bluman, a plaintiff sought to donate money
to federal candidates and a candidate running for the
New York state senate. 800 F. Supp. 2d at 285. Thus,
we agree with the district court that we are bound by
the Supreme Court's summary affirmance in Bluman.

II
The penalty provision applying to violations of §
30121 requires that an individual act "knowingly and

App I-12
willfully" when making a prohibited donation or
contribution:
(1)(A) Any person who knowingly and willfully
commits a violation of any provision of this Act which
involves the making, receiving, or reporting of any
contribution, donation, or expenditure—
(i) aggregating [**17] $25,000 or more during a
calendar year shall be fined under Title 18, or
imprisoned for not more than 5 years, or both . . .
52 U.S.C. § 30109(d) (emphasis added). Appellants
argue that the district court committed reversible
error by failing to properly instruct the jury as to the
required mental state. Appellants argue that Ratzlaf
v. United States, 510 U.S. 135, 114 S. Ct. 655, 126 L.
Ed. 2d 615 (1994), requires that the government prove
that the defendants harbored the specific intent to
evade § 30121, not merely the intent to commit
unlawful conduct. Singh additionally argues that the
district court erred by failing to instruct the jury that
"knowledge of Azano's immigration status was a
material element of the crime."
"We review the formulation of jury instructions for
abuse of discretion, but review de novo whether those
instructions correctly state the elements of the offense
and adequately cover the defendant's theory of the
case." United States v. Liew, 856 F.3d 585, 595-96 (9th
Cir. 2017).

A
In its jury instructions covering Azano's principal
offense, the district court stated the intent element for
§§ 30109(d)(1)(A) and 30121 as follows:

App I-13
Fourth, defendant acted knowingly and willfully.
...
An act is done willfully if the defendant acted with
knowledge that some part of his course of conduct was
unlawful and with the intent to do something the law
forbids, and [**18] again not by mistake or accident.
In other words, a person acts "willfully" when he acts
with a bad purpose to disobey or disregard the law.
It is not necessary for the government to prove that
the defendant was aware of the specific provision of the
law that he is charged with violating. Rather, it is
sufficient for the defendant to act knowing that his
conduct is unlawful, even if he does not know
precisely which law or regulation makes it so.
Azano objected to this instruction, and proposed
instead the jury be told that "in order to find that a
defendant knowingly and willfully committed the
crime charged in this count, you must find that he
knew his actions violated the prohibition on foreign
national contributions at the time he performed
them." Similarly, the jury instruction for Singh's
charge required only "knowledge that some part of his
course of conduct was unlawful," not that he
knew [*1045] specifically of the prohibition on
foreign national contributions.4
"The word 'willfully' is sometimes said to be 'a
word of many meanings' whose construction is often
dependent on the context in which it appears." Bryan
v. United States, 524 U.S. 184, 191, 118 S. Ct. 1939,
141 L. Ed. 2d 197 (1998). There are two primary
4 Although

Singh's proposed jury instructions did not clearly
request a heightened standard, we nonetheless address his
arguments.

App I-14
interpretations of "willfully" in [**19] the criminal
context. Generally, "to establish a 'willful' violation of
a statute, 'the Government must prove that the
defendant acted with knowledge that his conduct was
unlawful.'" Id. at 191-92 (quoting Ratzlaf, 510 U.S. at
137). Alternatively, a willful violation may require
proof that the defendant knows the specific legal
prohibition or law that his conduct violates. See, e.g.,
Ratzlaf, 510 U.S. at 149. In Ratzlaf, a case involving
domestic financial transactions, the Court held that
"willfulness" required the government to prove that
the defendant knew "not only of the bank's duty to
report cash transactions in excess of $10,000, but also
of his duty not to avoid triggering such a report." Id.
at 146-47. In other words, the government had to
show that the defendant knew the precise prohibition
at issue. Similarly, several tax statutes require proof
that the defendant was aware of the provision she is
charged with violating. See, e.g., Cheek v. United
States, 498 U.S. 192, 201, 111 S. Ct. 604, 112 L. Ed.
2d 617 (1991); United States v. DeTar, 832 F.2d 1110,
1114 (9th Cir. 1987). Cases requiring this heightened
standard "involved highly technical statutes that
presented the danger of ensnaring individuals
engaged in apparently innocent conduct." Bryan, 524
U.S. at 194.
In contrast, § 30121 is not a technical statute, nor
does it present the same concern of inadvertently
ensnaring uninformed individuals. In Ratzlaf,
the [**20] Court discussed how an identical action—
structuring a transaction—could have different legal
and tax implications simply by varying the amount of
the transaction. 510 U.S. at 145. Because the line
between liability and innocent conduct in that case
was so narrow, the requirement of a heightened

App I-15
standard was necessary. We see no such narrow line
in § 30121, which simply prohibits foreign nationals
from donating or contributing to candidates or
political parties. Azano suggests that it may be
difficult to discern whether a specific donation is
prohibited since foreign nationals may still donate to
"issue advocacy," but the Court did so clearly in FEC
v. Wisconsin Right to Life, Inc., 551 U.S. 449, 456, 127
S. Ct. 2652, 168 L. Ed. 2d 329 (2007). Azano further
suggests it may be difficult to discern what is
prohibited because only in the last thirty-five years
were donations to political candidates and parties
criminalized. Yet, it is our "traditional rule that
ignorance of the law is no excuse" from liability and
Azano's distinctions, then, provide no basis to apply
the heightened standard. Bryan, 524 U.S. at 196.
Azano next points to United States v. Goland, 959
F.2d 1449 (9th Cir. 1992), which involved a jury
instruction using the heightened Ratzlaf standard to
define "willfully" in § 30109(d)(1)(A). Azano argues
that because we have previously endorsed a
heightened standard, we should do so [**21] again.
However, Goland addressed only whether the district
court abused its discretion by failing to instruct the
jury that it may not infer the defendant's
specific [*1046] intent to violate FECA simply from
his failure to adhere to administrative or civil
provisions. Id. at 1454. We did not consider whether §
30109(d)(1)(A) requires a heightened standard.
Similarly, in United States v. Whittemore, 776 F.3d
1074, 1078-81 (9th Cir. 2015), we assessed only
whether the jury instruction given by the district
court adequately allowed the jury to consider the
defense's theory, not which standard was required.

App I-16
Neither case provides meaningful guidance for the
question presented here.
Azano also cites language in the district court's
opinion in Bluman for the proposition that "seeking
criminal penalties for violations of [§ 30121]—which
requires that the defendant act 'willfully'— . . .
require[s] proof of the defendant's knowledge of the
law." 800 F. Supp. 2d at 292 (citation omitted).
However, this statement played no role in the
judgment of the panel, and the court provided no
support for it besides a citation to United States v.
Moore, 612 F.3d 698, 702-04, 391 U.S. App. D.C. 413
(D.C. Cir. 2010) (Kavanaugh, J., concurring), a case
considering an entirely different statute. Not an
essential part of the holding and with no analysis, this
language in Bluman does not persuade us that the
heightened specific [**22]
intent standard is
appropriate for this statute.
Instead, we find persuasive the analysis of a sister
circuit that addressed whether the defendants acted
"knowingly
and
willfully"
pursuant
to
§
30109(d)(1)(A) when charged with violating FECA's
reporting requirements under § 30104. In United
States v. Benton, the court held that the district court
did not abuse its discretion when giving a jury
instruction adopting the Bryan standard of
willfulness. 890 F.3d 697, 715 (8th Cir. 2018). It
rejected the defendant's argument that "willfully"
under FECA falls within the exception for highly
technical statutes. We reach the same conclusion
here. Appellants make no showing that §
30109(d)(1)(A) requires application of the heightened
standard.

App I-17
Nor does the rule of lenity require that we
interpret "willfully" to require a heightened standard.
While "ambiguity concerning the ambit of criminal
statutes should be resolved in favor of lenity," Skilling
v. United States, 561 U.S. 358, 410, 130 S. Ct. 2896,
177 L. Ed. 2d 619 (2010) (quoting Cleveland v. United
States, 531 U.S. 12, 25, 121 S. Ct. 365, 148 L. Ed. 2d
221 (2000)), Azano asks us to conclude that any
criminal statute that imports a willfulness mens rea
is somehow vague or ambiguous. This does not
comport with the Supreme Court's case law, as we
generally apply the willfulness standard articulated
in Bryan, and require the heightened specific intent
standard only in exceptional cases. [**23] See 524
U.S. at 194-95 ("[W]e held that these statutes 'carv[e]
out an exception to the traditional rule' that ignorance
of the law is no excuse and require that the defendant
have knowledge of the law." (footnote omitted) (second
alteration in original) (quoting Cheek, 498 U.S. at
200)).
Azano's related argument that a heightened
specific intent standard properly applied to the
conspiracy charge fails for the same reasons. Because
it appropriately applied the Bryan standard, the
district court did not abuse its discretion in stating
the mens rea requirement for counts one or three.
Moreover, the evidence proffered at trial indicated
that Appellants took steps to conceal their actions,
which suggests that they possessed knowledge that
their actions were unlawful, not that they unwittingly
engaged in criminal conduct.

App I-18
B
As to the charge that Singh aided and abetted
Azano's unlawful donations, the district court's jury
instruction stated:
[*1047] The evidence must show beyond a
reasonable doubt that the defendant acted with the
knowledge and intention of helping [Azano] to commit
the crime of making donations and contributions by a
foreign national aggregating at least $25,000 in
calendar year 2012, in violation of Title 2, United
States Code, Sections 441e(a)(1)(A) and 437g(d)(1)(A).
Singh objected [**24] and proposed, in part, that
the jury be told that "the government must prove . . .
beyond a reasonable doubt . . . that Ravneet Singh
knew that Mr. Azano was not a United States citizen
or legal permanent resident." Singh argues that the
district court's failure to include the material element
that he knew Azano lacked immigration status
constitutes reversible error.
The government agrees that Singh's knowledge of
Azano's immigration status was a material element of
the charged crime, but argues that the element was
included within the district court's broader
instructions. That Singh was charged with aiding and
abetting the making of donations by a foreign national
implies that Singh must know that Azano was a
foreign national. The government also points to
various places in the record where the parties noted
this requirement. For example, the prosecutor stated,
"We have to prove that the defendant knew that
[Azano] was a foreign national."
We agree with the government. "The jury must be
instructed as to the defense theory of the case, but the
exact language proposed by the defendant need not be

App I-19
used, and it is not error to refuse a proposed
instruction so long as the other instructions [**25] in
their entirety cover that theory." United States v.
Kenny, 645 F.2d 1323, 1337 (9th Cir. 1981). Although
the district court could have properly included an
express instruction regarding Singh's knowledge of
Azano's immigration status, the instructions, as a
whole, adequately covered that element. The
instructions stated, "The evidence must show beyond
a reasonable doubt that [Singh] acted with the
knowledge and intention of helping [Azano] to commit
the crime of making donations and contributions by a
foreign national." The jury thus knew that in order to
find Singh guilty, it had to find that Singh was aware
that Azano was a foreign national.
The arguments and evidence presented at trial
further clarified this requirement. Singh's primary
defense was that he did not know Azano's
immigration status. Defense counsel stated in his
closing argument, "The government has absolutely
failed to prove beyond a reasonable doubt that Ravi
Singh knew that Mr. Azano was not a citizen nor a
green card holder and therefore was ineligible to do
anything." In response to this theory, the government
presented ample evidence of Singh's knowledge. First,
Singh's relationship with Azano started with services
relating to the Mexican presidential election in
2011 [**26] in connection with which he traveled to
Mexico with Azano. The Appellants' relationship
continued thereafter, and Singh performed other
work for Azano's Mexican businesses. Next, Singh
took clear steps to conceal Azano's involvement in the
campaigns. In emails, Singh admonished coworkers
for improper use of code names, and refused to

App I-20
communicate about relevant topics directly due to the
"legal ram[i]fications."
In sum, we find that the jury instructions
sufficiently covered the required mental state, as
required by § 30109 and Singh's defense theory.
III
Appellants contest their convictions under counts
five through thirty-seven, [*1048] arguing there was
insufficient evidence to satisfy the material elements
of § 1519. "We review the sufficiency of the evidence
de novo." United States v. Kaplan, 836 F.3d 1199,
1211 (9th Cir. 2016). We "view[] the evidence in the
light most favorable to the prosecution" and ask
whether "any rational trier of fact could have found
the essential elements of the crime beyond a
reasonable doubt." Jackson v. Virginia, 443 U.S. 307,
319, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979).
Section 1519 was enacted as part of the SarbanesOxley Act of 2002, Pub. L. No. 107-204, 116 Stat. 745,
and "was intended to prohibit, in particular, corporate
document-shredding to hide evidence of financial
wrongdoing." Yates v. United States, 574 U.S. 528, 135
S. Ct. 1074, 1081, 191 L. Ed. 2d 64 (2015). It provides
that
[w]hoever
knowingly
alters,
destroys,
mutilates, [**27] conceals, covers up, falsifies, or
makes a false entry in any record, document, or
tangible object with the intent to impede, obstruct, or
influence the investigation or proper administration
of any matter within the jurisdiction of any
department or agency of the United States . . . shall
be fined under this title, imprisoned not more than 20
years, or both.

App I-21
18 U.S.C. § 1519. "In order to prove a violation of
§ 1519, the Government must show that the
defendant (1) knowingly committed one of the
enumerated acts in the statute, such as destroying or
concealing; (2) towards 'any record, document, or
tangible object'; (3) with the intent to obstruct an
actual or contemplated investigation by the United
States of a matter within its jurisdiction." United
States v. Katakis, 800 F.3d 1017, 1023 (9th Cir. 2015).
The government offered two theories on the
falsification of records charges. For counts thirty-two
and thirty-seven, the government argued that Singh
failed to disclose that Azano paid for Singh's social
media services rendered to both the Dumanis and
Filner campaigns. Dumanis's campaign manager,
Jennifer Tierney, discussed payment options with
Singh, who responded that he would "voluntarily
help" to "break[] into the San Diego market" after
being warned "[t]hat no [**28] one could pay someone
to volunteer in a campaign." For the Filner campaign,
campaign manager Ed Clancy testified that when
discussing payment options, Singh responded, "Don't
worry. It's taken care of." The government argued
that these material omissions caused the campaigns
to file false entries on campaign disclosure reports.
For Azano's remaining counts, the government
argued that he made false statements to the
campaigns by using strawmen donors to conceal his
political donations. Azano never donated himself, but
instead instructed others to write checks on his silent
behalf, with the promise of reimbursement. The
government argued that these straw donors caused
the campaigns to file false entries on campaign
disclosure reports.

App I-22
A
Appellants first argue that the government failed
to introduce evidence to satisfy any of the material
elements of § 1519 for counts thirty-two and thirtyseven. We assess each element in turn.
1. Actus Reus
The government relied on Singh's omission to
satisfy § 1519's actus reus element. Singh argues that
the language in § 1519 requires an affirmative act,
and that a mere omission, without an affirmative
duty, cannot satisfy the element. Yet, many courts,
including our own, [**29] have found that an
omission with the requisite mental state satisfies the
element. See, e.g., [*1049] United States v. Taohim,
817 F.3d 1215, 529 F. App'x 969, 974 (11th Cir. 2013)
(per curiam); United States v. Moyer, 674 F.3d 192,
207 (3d Cir. 2012); United States v. Schmeltz, 667
F.3d 685, 687-88 (6th Cir. 2011); United States v.
Jackson, 186 F. App'x 736, 738-39 (9th Cir. 2006); see
also United States v. Lanham, 617 F.3d 873, 887 (6th
Cir. 2010) ("Material omissions of fact can be
interpreted as an attempt to 'cover up' or 'conceal'
information."). None of these decisions analyzed in
depth the question before us; they instead assumed
that an omission with the requisite intent satisfies §
1519. But Singh cites no case that has held that an
omission does not satisfy the requisite intent.
Two district courts have provided more extensive
analysis on the issue and concluded that an omission
constitutes a "false entry" within the meaning of §
1519. See United States v. Croley, No. 1:14-CR-29-2
(WLS), 2016 U.S. Dist. LEXIS 32591, 2016 WL

App I-23
1057015, at *5-6 (M.D. Ga. Mar. 14, 2016); United
States v. Norman, 87 F. Supp. 3d 737, 743-46 (E.D.
Pa. 2015). Croley found that the plain language of §
1519 "does not exclude a knowing and intentional
omission being construed as a false report." 2016 U.S.
Dist. LEXIS 32591, 2016 WL 1057015, at *5. Norman
noted the lack of authority on this precise issue, but
drew from the generally accepted premise that an
omission with the requisite mental state constitutes a
deceptive practice, and relied on a comparison to "an
analogous statute," 18 U.S.C. § 1005. 87 F. Supp. 3d
at 744. Section 1005 prohibits "any false entry in any
book, report, or statement of [a] bank . . . with intent
to injure or defraud such bank . . . or to deceive any
officer [**30] of such bank." 18 U.S.C. § 1005. Both §§
1519 and 1005 prohibit false entries with the
requisite mental state, and "[u]nder § 1005, 'an
omission of material information qualifies as a false
entry.'" United States v. Weidner, 437 F.3d 1023, 1037
(10th Cir. 2006) (quoting United States v. Cordell, 912
F.2d 769, 773 (5th Cir. 1990)).
We find the district courts' analyses convincing. It
is difficult to differentiate between the culpability of
one who intentionally omits information, and one who
conceals or falsifies information. It may also be
difficult to differentiate between acts of concealment
and omission. Imagine, for example, an individual
who omits the detail of a specific, identifiable tattoo
from a witness statement, in order to conceal the
identity of a perpetrator. In such a situation, the
omission is an act of concealment or falsification.
Singh observes that the text of § 1519 lists only
affirmative prohibited acts, and relies on the
"interpretive canon, expressio unius est exclusio

App I-24
alterius, 'expressing one item of [an] associated group
or series excludes another left unmentioned.'"
Chevron U.S.A. Inc. v. Echazabal, 536 U.S. 73, 80, 122
S. Ct. 2045, 153 L. Ed. 2d 82 (2002) (alteration in
original) (quoting United States v. Vonn, 535 U.S. 55,
65, 122 S. Ct. 1043, 152 L. Ed. 2d 90 (2002)). But
"[h]owever well [statutory canons such as expressio
unius] may serve at times to aid in deciphering
legislative intent, they have long been subordinated
to the doctrine that courts will construe the details of
an [**31] act in conformity with its dominating
general purpose." SEC v. C. M. Joiner Leasing Corp.,
320 U.S. 344, 350, 64 S. Ct. 120, 88 L. Ed. 88 (1943).
Congress intended for § 1519 to apply to a broad range
of conduct. See S. Rep. No. 107-146, at 14 (2002)
("Section 1519 is meant to apply broadly to any acts
to destroy or fabricate physical evidence so long as
they are done with the intent to obstruct, impede, or
influence the investigation or proper administration
of any matter . . . .") (emphasis added)). This supports
the conclusion that an omission satisfies § 1519's
actus reus element, especially [*1050] since terms
such as "conceal" and "false entry," specifically listed
in the statute, refer to similar actions.
Singh further argues that even if he omitted the
information that Azano was paying him for the social
media services he provided to the campaigns, he had
no duty to disclose that information. He claims that
since he played no role in preparing the campaign
disclosure forms, his connection to any actions taken
was particularly tenuous. This argument has merit.
In most of the cases where courts affirmed § 1519
convictions based on omissions, the defendants either
prepared the record or document, or were responsible
for doing so. See, e.g., Taohim, 529 F. App'x at 974 n.2

App I-25
(finding that the jury could reasonably have found the
defendant [**32] responsible for the report at issue);
Moyer, 674 F.3d at 207 (finding that a chief of police
had a legal duty to disclose certain information in his
report). The campaign disclosure forms for the
mayoral candidates in this case were filed pursuant
to San Diego's Municipal Code section 27.2930(a) and
California Government Code section 84200.5—both of
which imposed the reporting requirements on
campaigns and candidates, not on individuals
"volunteering" or providing services to the campaigns.
However, Singh was not simply convicted under §
1519. Instead, the jury instructions and the
Indictment disclosed that the government proceeded
under 18 U.S.C. § 2(b) in conjunction with § 1519.
"[Section 2(b)] is intended 'to impose criminal liability
on one who causes an intermediary to commit a
criminal act, even though the intermediary who
performed the act has no criminal intent and hence is
innocent of the substantive crime charged. . . .'"
United States v. Richeson, 825 F.2d 17, 20 (4th Cir.
1987) (second alteration in original) (quoting United
States v. Tobon-Builes, 706 F.2d 1092, 1099 (11th Cir.
1983)). It specifically prohibits a person from
"willfully caus[ing] an act to be done which if directly
performed by him or another would be an offense
against the United States." 18 U.S.C. § 2(b).
Under this theory of liability, the actus reus
element merges with the mens rea element to focus
liability on the person harboring the criminal intent.
United States v. Curran, 20 F.3d 560, 567 (3d Cir.
1994) ("Under [**33] section 2(b), the intermediary
committing the actus reus, the physical aspect of a
crime, may be blameless and, therefore, is not the

App I-26
person whom society seeks to punish. To fix
blameworthiness on the actual malefactor, § 2(b)
merges the mens rea and actus reus elements and
imposes liability on the person possessing the 'evil
intent' to cause the criminal statute to be violated.").
Thus, the government did not need to prove that
Singh prepared the reports or had a duty to report
Azano's patronage; rather, that the campaign had a
duty to report the information is enough. See United
States v. Fairchild, 990 F.2d 1139, 1141 (9th Cir.
1993) (finding liability under § 2(b) because
defendant's actions caused false statements to be
made to the government).
Proceeding under this theory is in line with
Congress's intention that § 1519 be broadly
construed:
Finally, [section 1519] could also be used to
prosecute a person who actually destroys the records
himself in addition to one who persuades another to
do so, ending yet another technical distinction which
burdens successful prosecution of wrongdoers.
S. Rep. No. 107-146, at 15 (emphasis added).
Where, as here, the campaign lacked the requisite
intent because it was unaware of Azano's payments
due to Singh's silence, § 2(b) authorized holding
accountable [*1051] [**34] those with the intent to
conceal or falsify records.
2. Causation Under Section 2(b)
"When a defendant's culpability is based, not on
his own communications with the federal agency, but
on information furnished to the agency by an
intermediary, the element of intent takes on a
different cast than it does if a direct violation of [the

App I-27
underlying statute] is asserted." Curran, 20 F.3d at
567. By proceeding pursuant to § 2(b), the government
had to show that Singh "willfully" caused the false
reporting. 18 U.S.C. § 2(b). Singh argues that Curran
compels us to use the Ratzlaf standard, which would
require that he must have known "the reporting
requirements and intended to cause them to be
evaded." But, under either the Ratzlaf or Bryan
standard, we find the evidence sufficient to affirm
count thirty-two for Singh's actions in connection with
the Dumanis campaign, although insufficient to
affirm count thirty-seven in connection with his
actions regarding the Filner campaign.
The government presented sufficient evidence for
a jury to find that Singh willfully caused the Dumanis
campaign to file falsified reports, and so we affirm
Appellants' convictions under count thirty-two. The
government established that Singh had a long history
of providing [**35] his professional services in
connection with political campaigns and elections,
that he had operated ElectionMall since 2003, and
had even run for a political office himself at an earlier
time. Tierney testified that she warned Singh "[t]hat
no one could pay someone to volunteer in a campaign,"
and "[t]hat if any payments were made, those would
have to be reported to the campaign, and we would
have to report them on a [Form] 460." Knowing these
reporting requirements, Singh still offered to
"voluntarily help" and concealed Azano's payments by
using code names and invoicing through separate
companies. The jury reasonably could have found that
Singh knew campaign disclosure reports required

App I-28
disclosing in-kind contributions, and that he withheld
his funding to prevent such disclosures.5
Regarding Appellants' convictions pursuant to
count thirty-seven—causing the Filner campaign to
file false reports—we find the evidence insufficient to
sustain either conviction. When the Filner campaign
asked about payment for Singh's social media
services, Singh stated, "Don't worry. It's taken care
of." Clancy, the campaign manager, did not respond
with any questions, and later admitted, "I made
a [**36] mistake . . . . I internalized the information .
. . . I should have let somebody know." Singh's
statement cannot reasonably be construed as willfully
causing the Filner campaign to file falsified reports.
Instead, Singh's statements suggested that he was
being paid by a third party, yet the campaign failed to
note this in the reports. This cannot meet even the
Bryan standard of willfulness, and so we reverse both
convictions
under
count
thirty-seven.
3. Investigation
Singh also argues that the government did not
show that his actions were taken with "the intent to
impede, obstruct, or influence the investigation or
proper administration of any matter." 18 U.S.C. §
1519. He cites cases that focus on the nexus between
the action and an investigation to argue that the
government erred [*1052] "by conflating the intent

5 On

this point, Singh also argues that the jury instructions were
erroneous. Due to the overwhelming evidence we have recited,
however, we find any instructional error harmless beyond a
reasonable doubt. See Neder v. United States, 527 U.S. 1, 9-10,
119 S. Ct. 1827, 144 L. Ed. 2d 35 (1999).

App I-29
to commit the underlying crime with the intent to
impede a subsequent investigation."
On its face, the statute is particularly broad
regarding the investigation element. One need not
impede, obstruct, or influence an actual ongoing
investigation; instead, the mere fact that the
defendant contemplates an investigation satisfies
this element. United States v. Gonzalez, 906 F.3d 784,
793-96 (9th Cir. 2018). Congress intentionally relaxed
this requirement to allow [**37] the statute to reach
more broadly. See S. Rep. No. 107-146, at 14-15 ("This
statute is specifically meant not to include any
technical requirement, which some courts have read
into other obstruction of justice statutes, to tie the
obstructive conduct to a pending or imminent
proceeding or matter. It is also sufficient that the act
is done "in contemplation" of or in relation to a matter
or investigation.").6
Reading the section broadly, the government
presented sufficient evidence to prove this element.
The government established that Singh had a long
history of involvement in campaigns and elections,
and that he was warned about the reporting
requirements in the San Diego mayoralty campaigns.
Still, Singh stated he would "voluntarily help" and did
not disclose any payments by Azano. Singh limited
any paper trail by using code names and admonishing
those discussing Azano's payments in emails. From
this evidence, a jury could reasonably infer that Singh

6 Our

sister circuits have similarly interpreted the section
broadly. See, e.g., United States v. Moore, 708 F.3d 639, 649 (5th
Cir. 2013); United States v. Kernell, 667 F.3d 746, 755 (6th Cir.
2012); United States v. Gray, 642 F.3d 371, 378-79 (2d Cir. 2011).

App I-30
contemplated an investigation due to unlawful
activity and intended to direct that investigation
away from himself.
4. Jurisdiction
Lastly, Singh argues that any investigation of his
conduct is not within the jurisdiction of
the [**38] United States, because it involved a local
campaign, and the falsified campaign disclosure
forms violated state and local laws, not federal law.
Section 1519 requires that the conduct "influence the
investigation or proper administration of any matter
within the jurisdiction of any department or agency of
the United States." 18 U.S.C. § 1519 (emphasis
added).
Singh misconstrues the focus of the investigation.
We agree that violations of state campaign disclosure
laws do not fall within the jurisdiction of the United
States; however, the Federal Bureau of Investigation
(FBI) has jurisdiction to investigate violations of
FECA. This extends to state and local elections
insofar as the FBI investigates donations by a foreign
national. Here, the FBI did investigate the
campaigns, due to Azano's foreign nationality. That
the reports were filed pursuant to state law has no
bearing since they were sought in connection with the
investigation of a federal crime.
Singh cites United States v. Facchini, 874 F.2d 638
(9th Cir. 1989) (en banc), and United States v. Ford,
639 F.3d 718 (6th Cir. 2011), to support his argument.
Both cases involved prosecutions pursuant to 18
U.S.C. § 1001, and both cases found no "direct
relationship . . . between the false statement and an
authorized function of a federal agency or

App I-31
department." Facchini, 874 F.2d at 641; see also Ford,
639 F.3d at 720-22. In contrast, [**39] the
government here focused on donations and
contributions by a foreign national, and those fall
within the jurisdiction of the FBI.7
[*1053] B
Azano also argues there was insufficient evidence
to affirm his remaining convictions under counts five
through thirty-one and thirty-three through thirtysix. We conclude that the government presented
sufficient evidence to show that Azano willfully
caused the campaigns to make false entries on
campaign disclosure forms with the intent of
obstructing a potential investigation. Chase testified
that Azano asked him to recruit straw donors for the
Dumanis campaign and make a large donation to a
Filner PAC, and promised to reimburse him for those
donations. Azano also tasked his employee, Jason
Wolter, and his own son, Hester, to "recruit . . . friends
. . . to write a $500 check to the campaign." The
government presented a ledger seized from Azano's
home that tallied all straw donations obtained. Azano
made no direct donations, but his U.S.-based
company, AIRSAM, made a $100,000 donation to fund
a Dumanis PAC. A local newspaper article traced the
money back to Azano, questioning whether the
donation was legal due to Azano's immigration status.
The government [**40] noted that, subsequently,
7 Singh

argues that the rule of lenity directs us to resolve any ambiguity
in § 1519 in his favor. But even if we were to agree that the statute is
ambiguous, we would refuse to apply the rule of lenity in this case given
the strong evidence that Appellants knew that their actions were
unlawful. See United States v. Nader, 542 F.3d 713, 721 (9th Cir. 2008).

App I-32
Azano never made another donation through
AIRSAM. All of the evidence presented allowed a
rational trier of fact to find that Azano knowingly
caused the campaigns to make false entries on
campaign disclosure forms with the intent to obstruct
a potential investigation.
Azano additionally argues that there was
insufficient evidence to convict him of count thirtythree, which involved a $100,000 donation from
AIRSAM to a Dumanis PAC. While Azano correctly
notes that AIRSAM may legally donate to a PAC, see
Citizens United v. FEC, 558 U.S. 310, 372, 130 S. Ct.
876, 175 L. Ed. 2d 753 (2010), the government
proceeded under the theory that AIRSAM was a straw
donor for Azano, who had no constitutional right to
donate. We find that the government presented
sufficient evidence that Azano put the funds into
AIRSAM's account to disguise the donation, much
like the straw donations provided by U.S. citizens.
The government presented documentation showing
that AIRSAM's bank account did not have the funds
on May 8, 2012—the date on the check to Dumanis's
PAC—to pay the $100,000 pledged. The government
then presented bank statements showing transfers
from Azano's personal bank account ($125,000) and
from his Mexican company ($300,000) into AIRSAM's
account. [**41]
In summation, we hold that an omission satisfies
the actus reus element for § 1519. A reasonable jury
could have found beyond a reasonable doubt that
Singh's omission willfully caused Dumanis's
campaign to file false reports, and so we affirm
Azano's and Singh's convictions under count thirtytwo. Furthermore, a reasonable jury could have found

App I-33
beyond a reasonable doubt that Azano concealed his
identity from these campaigns by recruiting straw
donors, and that he willfully caused both campaigns
to file false reports. We therefore affirm Azano's
convictions under counts five through thirty-six.
Finally, finding the evidence insufficient to prove that
Singh willfully caused the Filner campaign to file
false records, we reverse Appellants' convictions
under count thirty-seven.
IV
Singh next appeals his conviction for conspiracy,
charged in count one. First, he argues that the court
failed "to instruct [*1054] the jury that evidence of
more than one conspiracy was presented to the jury."
We review de novo whether the jury instructions
adequately cover the defendant's theory of the case.
Liew, 856 F.3d at 595-96.
We find that the following jury instruction
adequately covered Singh's multiple conspiracy
theory:
[The jury] must decide [**42] whether the
conspiracy charged in Count 1 of the Indictment
existed, and, if it did, who at least some of its
members were. If you find that the conspiracy
charged did not exist for the charged Count, then you
must return a not guilty verdict for that Count, even
though you may find that some other conspiracy
existed. Similarly, if you find that any defendant was
not a member of the charged conspiracy, then you
must find that defendant not guilty for that Count,
even though that defendant may have been a member
of some other conspiracy.

App I-34
Thus, the jury had to find that Singh participated
in the charged conspiracy; if not, "even though [Singh]
may have been a member of some other conspiracy,"
the jury was instructed to return a not guilty verdict.
It was the jury that had to decide whether a
conspiracy or multiple conspiracies existed, and the
court's jury instruction adequately presented this
theory. See United States v. Loya, 807 F.2d 1483,
1492-93 (9th Cir. 1987).
Singh also argues that there was insufficient
evidence of a single conspiracy to sustain his
conviction. Instead, he claims that the government
proved only a "rimless conspiracy" under which his
conviction could not stand. "Whether a single
conspiracy has been proved is a question of [**43] the
sufficiency of the evidence," and we review such
claims de novo. United States v. Fernandez, 388 F.3d
1199, 1226 (9th Cir. 2004), as amended, 425 F.3d 1248
(9th Cir. 2005).
To determine whether a single conspiracy or
multiple conspiracies have been proven, we employ
the following test:
A single conspiracy can only be demonstrated by
proof that an overall agreement existed among the
conspirators. Furthermore, the evidence must show
that each defendant knew, or had reason to know,
that his benefits were probably dependent upon the
success of the entire operation. Typically, the
inference of an overall agreement is drawn from proof
of a single objective . . . or from proof that the key
participants and the method of operation remained
constant throughout the conspiracy. The inference
that a defendant had reason to believe that his
benefits were dependent upon the success of the

App I-35
entire venture may be drawn from proof that the
coconspirators knew of each other's participation or
actually benefitted from the activities of his
coconspirators.
Id. (quoting United States v. Duran, 189 F.3d
1071, 1080 (9th Cir. 1999)). "[I]f the indictment
alleges a single conspiracy, but the evidence at trial
establishes only that there were multiple unrelated
conspiracies, there is insufficient evidence to support
the conviction on the crime charged, and [**44] the
affected conviction must be reversed." Id. at 1226-27.
Nonetheless, "[a] single conspiracy may involve
several subagreements or subgroups of conspirators."
United States v. Bibbero, 749 F.2d 581, 587 (9th Cir.
1984).
The Indictment alleged a single conspiracy. Singh
argues that his only objective was to make money for
his social media business, not to influence elections.
Yet the jury could reasonably have concluded that
Singh's goal was broader. In an email from Dumanis
to her campaign staff, she reported that she "got a
call, conference call, from Ernie Encinas,
Susumo [*1055] Azano, and Ravi Singh. . . [Singh]
apparently flew to SD just to talk with Mr. A who
wanted him to talk to me!" In an email between Singh
and Encinas, Encinas mentioned, "[Azano] was upset
about the money he said he sent you to form a PAC
and do the social media." These interactions with
Azano suggested that Singh's role was not limited to
his social media business, but included generally
assisting Azano with the campaigns.
Furthermore, the key participants and method of
operations remained the same throughout the period
of the conspiracy. All co-defendants acted from at

App I-36
least December 2011 to November 2012. Singh spoke
with Azano and then flew to San Diego to meet with
the Dumanis campaign [**45] at the end of
December. At the same time, Chase and Hester
secured straw donors to contribute to Dumanis's
campaign. Just as Chase, Hester, and Encinas
concealed Azano's donations to the campaigns, so too
Singh concealed Azano's patronage. Once Dumanis
lost the primary, all the participants proceeded to
support the Filner campaign in much the same way.
The jury could reasonably have inferred an overall
agreement from the proof of a single goal, or from
proof that these key participants and their general
operations remained constant throughout the
conspiracy.
It might be a closer question whether Singh knew,
or had reason to know, about the other coconspirators' participation. The government provided
sufficient evidence that Singh knew Azano and
Encinas and the role they played in coordinating
efforts for the San Diego mayoral race, but there is no
direct evidence that Singh knew of the subgroup who
obtained straw donors. However, the government did
not need to show that Singh "knew all of the purposes
of and all of the participants in the conspiracy."
United States v. Kearney, 560 F.2d 1358, 1362 (9th
Cir. 1977). Instead, while there may not have been
proof of direct knowledge of Hester's, Cortes's, or
Chase's contributions, there was proof [**46] that
Singh benefitted from them, as they all worked
towards election of mayoral candidates. The straw
donations that Hester, Cortes, and Chase obtained,
whether for the individual campaigns or for PACs,
affected Singh's success as a "volunteer" for the
campaigns. All of their efforts benefitted the common

App I-37
goal of electing Azano's chosen mayoral candidates.
Under the standard in Fernandez, this was sufficient
to show a single conspiracy.
V
Azano was also convicted of unlawfully possessing
a firearm as an alien in violation of 18 U.S.C. §
922(g)(5)(B), which states,
(g) It shall be unlawful for any person—
...
(5) who, being an alien— . . .
...
(B) except as provided in subsection (y)(2), has
been admitted to the United States under a
nonimmigrant visa (as that term is defined in section
101(a)(26) of the Immigration and Nationality Act (8
U.S.C. 1101(a)(26)));
...
to . . . possess in or affecting commerce, any
firearm or ammunition. . .
Subsection "(g)(5)(B) . . . do[es] not apply to any
alien who has been lawfully admitted to the United
States under a nonimmigrant visa, if that alien is . . .
admitted to the United States for lawful hunting or
sporting purposes or is in possession of a hunting
license or permit lawfully issued in the United
States." Id. § 922(y)(2) (emphasis added).
[*1056]
The
State
Department
admitted [**47] Azano to the United States through
several B1/B2 visas "issued to someone who wishes to
visit the United States for personal pleasure and
limited business." A nonimmigrant visitor for
business is granted a B1 visa, while a visitor for

App I-38
pleasure is granted a B2 visa. 22 C.F.R. § 41.31(a).
"The term pleasure . . . refers to legitimate activities
of a recreational character, including tourism,
amusement, visits with friends or relatives, rest,
medical treatment, and activities of a fraternal,
social, or service nature." Id. § 41.31(b)(2).
Azano does not dispute that he was admitted
under a nonimmigrant visa, but makes three
arguments challenging his conviction under §
922(g)(5)(B). First, Azano argues that § 922(g)(5)(B) is
unconstitutional because it violates his Second
Amendment right to possess a firearm. Next, he
argues that the possession of a gun can be "of a
recreational character" and for "amusement" and
thus, B2 visa holders qualify for § 922(y)(2)'s "sporting
purposes" exception. Lastly, Azano alternatively
argues that if the regulations and statute do not
authorize B2 holders to possess a gun, the statute is
unconstitutionally vague as applied to him. We
address each argument in turn.
A.
Azano's Second Amendment challenge comes on
the heels of our recent decision in United
States [**48] v. Torres, where we held that §
922(g)(5)(A), which prohibits aliens illegally or
unlawfully in the United States from possessing
firearms, does not violate the Second Amendment.
911 F.3d 1253, 1264-65 (9th Cir. 2019). We must now
consider whether § 922(g)(5)(B), a similar prohibition
that applies to nonimmigrant visa holders, violates
the Second Amendment.
To analyze whether a statute violates the Second
Amendment, we utilize a two-step test, which "(1)

App I-39
asks whether the challenged law burdens conduct
protected by the Second Amendment and (2) if so,
directs courts to apply an appropriate level of
scrutiny." United States v. Chovan, 735 F.3d 1127,
1136 (9th Cir. 2013). Under the first step, we must
determine whether the law burdens the Second
Amendment "based on a 'historical understanding of
the scope of the [Second Amendment] right.'" Jackson
v. City and Cty. of San Francisco, 746 F.3d 953, 960
(9th Cir. 2014) (alteration in original) (quoting
District of Columbia v. Heller, 554 U.S. 570, 625, 128
S. Ct. 2783, 171 L. Ed. 2d 637 (2008)). In Torres, we
attempted to trace the historical understanding of the
right by looking primarily at the Supreme Court's
decision in Heller and decisions by our sister circuits.
We noted that while Heller did not resolve who
exactly possesses a Second Amendment right, the
decision "described the Second Amendment as
'protect[ing] the right of citizens' and 'belong[ing] to
all Americans.'" Torres, 911 F.3d at 1259 (alterations
in original) (quoting Heller, 554 U.S. at 581, 595).
Additionally, we observed that while all of our sister
circuits that had analyzed the constitutionality of §
922(g)(5)(A)
had
found
the
statute
constitutional, [**49] they had differed in their
assessment of its historical scope. Compare United
States v. Portillo-Munoz, 643 F.3d 437, 440 (5th Cir.
2011) (concluding that "the people" does not include
illegal aliens given Heller's descriptions of the right
extending to those in "the political community"),
United States v. Flores, 663 F.3d 1022, 1023 (8th Cir.
2011) (per curiam) (agreeing with the Fifth Circuit),
and United States v. Carpio-Leon, 701 F.3d 974, 979
(4th Cir. 2012) ("[I]llegal aliens do not belong to the
class of law-abiding members of the political

App I-40
community
to
whom
the
Second
Amendment [*1057] gives protection."), with United
States v. Meza-Rodriguez, 798 F.3d 664, 670-72 (7th
Cir. 2015) (applying the sufficient connections test in
United States v. Verdugo-Urquidez, 494 U.S. 259, 110
S. Ct. 1056, 108 L. Ed. 2d 222 (1990), to determine
that the unlawful alien had sufficient connections to
the United States to be afforded Second Amendment
rights), and United States v. Huitron-Guizar, 678
F.3d 1164, 1168 (10th Cir. 2012) (refusing to
determine whether unlawful aliens are within the
scope of the Second Amendment and instead
assuming it for the second part of the analysis). After
this analysis, we noted that "the state of the law
precludes us from reaching a definite answer on
whether unlawful aliens are included in the scope of
the Second Amendment right." Torres, 911 F.3d at
1261.
Even though we address a lawfully admitted,
nonimmigrant alien in this case, the same ambiguity
exists. Some courts have read the historical right as
one afforded only to citizens or those involved in the
political
community,
while
others
have
focused [**50] instead on an individual's connection
to the United States. Nonimmigrant aliens, like those
unlawfully present, are neither citizens nor members
of the political community. By definition, "[a]n alien
is classifiable as a nonimmigrant visitor for business
(B-1) or pleasure (B-2) if . . . [t]he alien intends to
leave the United States at the end of the temporary
stay." 22 C.F.R. § 41.31(a). In order to grant such a
visa, the government ensures that the individual "has
permission to enter a foreign country at the end of the
temporary
stay"
and
"[a]dequate
financial
arrangements . . . to carry out the purpose of the visit

App I-41
to and departure from the United States." Id. The
government argues that because such measures
ensure a temporary visit, a short-term visitor could
not be part of "the people" any more than unlawful or
illegal aliens who attempt to permanently reside in
the United States. While this argument does not lack
force, we believe it prudent to follow Torres, "assume
(without deciding) that the Second Amendment
extends to" nonimmigrant visa holders, and proceed
to the second step of the analysis. 911 F.3d at 1261.
In Torres, we determined that the appropriate
level of scrutiny to apply to a Second Amendment
challenge of § 922(g)(5) is intermediate. Id. at 126263 (explaining [**51] that "§ 922(g)(5) does not
implicate the core Second Amendment right, and . . .
its burden is tempered"). Intermediate scrutiny
requires "(1) the government's stated objective to be
significant, substantial, or important; and (2) a
reasonable fit between the challenged regulation and
the asserted objective." Chovan, 735 F.3d at 1139. The
government does not need to show that the statute is
"the least restrictive means of achieving its interest,"
but rather "only that [the statute] promotes a
'substantial government interest that would be
achieved less effectively absent the regulation.'"
Fyock v. City of Sunnyvale, 779 F.3d 991, 1000 (9th
Cir. 2015) (quoting Colacurcio v. City of Kent, 163
F.3d 545, 553 (9th Cir. 1998)).
The government's interest in this case is
straightforward. The government's interest is the
same as in Torres—crime control and maintaining
public safety. This objective has repeatedly been
recognized as important within our circuit and
elsewhere. See, e.g., Heller, 554 U.S. at 626-27

App I-42
(recognizing that regulations on gun possession or
ownership may be lawful due to the government's
interest in public safety); Mahoney v. Sessions, 871
F.3d 873, 882 (9th Cir. 2017); United States v. Yancey,
621 F.3d 681, 684-85 (7th Cir. 2010).
Further, the statute reasonably serves this
important
interest.
It
carves
out
exceptions [*1058] for visa holders who are less
likely to threaten public safety. Section 922(y)(2), for
example, exempts those that come to the United
States for hunting or sporting purposes. And, §
922(y)(3) creates [**52] a broad waiver for visa
holders who have "resided in the United States for a
continuous period of not less than 180 days" if they
receive a statement of support from their embassy or
consulate, and the Attorney General confirms that
they do not "jeopardize the public safety." 18 U.S.C. §
922(y)(3)(B)(i)-(ii), (C)(ii). We find this tailoring
sufficient.
In summary, § 922(g)(5)(B)'s prohibition on
firearm possession and ownership by nonimmigrant
visa holders serves an important public interest in
crime control and public safety, without substantially
burdening a nonimmigrant visa holder's assumed
Second Amendment right. We therefore hold that §
922(g)(5)(B) survives intermediate scrutiny.
B.
We turn next to Azano's claim that his possession
of a gun fell within the "pleasure" designation in 22
C.F.R. § 41.31(b)(2) or automatically qualified as a
"sporting purpose" pursuant to 18 U.S.C. § 922(y)(2).
Azano further argues that if the regulations and
statute are not interpreted this way, they are void for

App I-43
vagueness. We review the interpretation of a statute,
and whether it is unconstitutionally vague, de novo.
United States v. Robertson, 875 F.3d 1281, 1286-87
(9th Cir. 2017).
Azano first argues that all B2 nonimmigrant visa
holders should be permitted to own firearms, as their
very presence is an "activit[y] of a recreational
character." 22 C.F.R § 41.31(b)(2). But the plain
language
of
§
922(g)(5)(B)
betrays
Azano's [**53]
argument. Section 922(g)(5)(B)
applies directly to nonimmigrant visa holders. Azano
agrees that B2 visa holders are nonimmigrant visa
holders, yet simply states that we should interpret
"pleasure" activities to include firearm ownership.
However, "[a]bsent persuasive indications to the
contrary, we presume Congress says what it means
and means what it says." Simmons v. Himmelreich,
136 S. Ct. 1843, 1848, 195 L. Ed. 2d 106 (2016).
Azano's next position—that firearm possession for
"sporting purposes" is a pleasure activity—
necessarily implies that all B2 visa holders fall under
§ 922(y)(2)'s exception. "In construing provisions . . .
in which a general statement of policy is qualified by
an exception, we usually read the exception narrowly
in order to preserve the primary operation of the
provision." Comm'r v. Clark, 489 U.S. 726, 739, 109 S.
Ct. 1455, 103 L. Ed. 2d 753 (1989). This interpretive
method guides our analysis here. Section 922(g)(5)(B)
plainly prohibits firearm possession by B2 visa
holders, subject only to limited exceptions clearly
spelled out in § 922(y). Had Congress intended for the
sporting purposes exception in § 922(y)(2)(A) to apply
to all B2 visa holders, it would have said so explicitly.

App I-44
Further, the record illustrates just how
overinclusive Azano's proffered definition would be.
Azano has never claimed that he engaged in hunting
activities for pleasure or used the firearm for
sporting [**54] purposes.8 Instead, he offered
evidence suggesting that he possessed the gun solely
for protection. Concluding that firearm ownership
automatically
qualifies
as
a
"pleasure"
activity [*1059] or "sporting purpose" would thus be
difficult in the light of the facts of this case alone.
Azano's void-for-vagueness claim also fails. A
statute is unconstitutionally vague if it "fails to
provide people of ordinary intelligence a reasonable
opportunity to understand what conduct it prohibits."
SEC v. Gemstar-TV Guide Int'l, Inc., 401 F.3d 1031,
1048 (9th Cir. 2005) (en banc) (quoting Hill v.
Colorado, 530 U.S. 703, 732, 120 S. Ct. 2480, 147 L.
Ed. 2d 597 (2000)). Section 922(g)(5)(B) quite clearly
prohibits possession of firearms by all those admitted
to the United States under a nonimmigrant visa.
Section 922(y)(2) includes an exception to this general
rule for nonimmigrant visa holders who visit the
United States for lawful hunting or sporting
purposes. We interpret "sporting purposes" according
to the narrow provision that includes it. The exception
reasonably implies sporting activities that involve the
use of guns, such as target shooting, or trap and skeet
shooting. It does not suggest a broader definition
including all recreational activities or possession of

8 To

the extent that Azano now claims that he qualified under §
922(y)(2), he failed to raise this affirmative defense below, and
so it is forfeited. See Brannan v. United Student Aid Funds, Inc.,
94 F.3d 1260, 1266 (9th Cir. 1996).

App I-45
guns for pleasure. Section 922(y)(2)'s legislative
history also supports this interpretation:
[I]f you are someone who has come to
the [**55] United States for lawful hunting or
sporting hunts . . . that person is exempt. That person
may purchase a gun while here for that purpose.
144 Cong. Rec. S8641 (daily ed. July 21, 1998)
(statement of Sen. Durbin).
B1/B2 nonimmigrant visa holders do not
automatically qualify for § 922(y)(2)'s exception and,
by a plain reading of the statute, are subject to the
prohibition on gun possession. Furthermore, §
922(y)(2) is not unconstitutionally vague as applied to
B1/B2 visa holders. Accordingly, we affirm the district
court's holdings and Azano's conviction under §
922(g)(5)(B).

VI
Finally, Appellants seek our review of the district
court's denial of several trial motions. First, Azano
argues that the district court abused its discretion in
denying his motion for a new trial based on alleged
ineffective assistance of his trial counsel, Michael
Wynne. Singh also argues that the district court
abused its discretion when denying his motion to
sever the trial from co-defendants Cortes and Hester.
A.
"[W]hen a claim of ineffective assistance of counsel
is first raised in the district court prior to the
judgment of conviction, the district court may, and at
times should, consider the claim at that point in the
proceeding." United States v. Steele, 733 F.3d 894, 897

App I-46
(9th Cir. 2013) (quoting [**56] United States v.
Brown, 623 F.3d 104, 113 (2d Cir. 2010)). However,
the decision of whether to review the claim "is best
left to the discretion of the district court." Id. "We are
mindful that district courts face competing
considerations in deciding whether it is appropriate
to inquire into the merits of [ineffective assistance]
claims prior to judgment, including . . . the . . .
disruption of the proceedings." Id. at 898 (alterations
in original) (quoting Brown, 623 F.3d at 113). Such
considerations include "the existence of evidence
already in the record indicating ineffective assistance
of counsel," "the scope of the evidentiary hearing that
would be required to fully decide the claim," and the
need to relieve trial counsel, appoint new counsel, or
consider the availability of post-conviction counsel if
the claim is not heard until then. Id.
In denying Azano's motion for a new trial, the
district court explained that "the trial record here is
not sufficiently developed to enable the [c]ourt to
resolve [*1060] the multiple and varied ineffective
assistance of counsel claims being asserted by Mr.
Azano . . . . Mr. Azano sets forth, by my count, no less
than a dozen separate grounds in support of that
claim, each of which would have to be considered and
evaluated individually." [**57] The court agreed with
the government that there would be "a long delay in
resolving the case, and . . . [it] would run afoul of this
[c]ourt's duty to promote the interest of justice and
judicial economy."
The district court did not abuse its discretion. We
agree with the court that there are a number of claims
at issue even though Azano frames his motion as a
single ineffective assistance of counsel claim. We

App I-47
observe, at a minimum, ineffective assistance of
counsel claims for failure to proffer a defense, failure
to introduce exculpatory evidence, and failure to
adequately investigate. To address such claims, the
court would have needed to examine counsel's reasons
and motivations for taking and not taking certain
actions, which would have resulted in a prolonged
evidentiary hearing. Additionally, Azano's ability to
retain post-conviction representation relieves
concerns that the claim may not receive due
consideration in a collateral proceeding.
Other considerations weigh in Azano's favor.
Azano appointed another attorney for post-trial
motions, eliminating the district court's need "to
relieve the defendant's attorney, or in any event, to
appoint new counsel in order to properly
adjudicate [**58] the merits of the claim." Id.
(quoting Brown, 623 F.3d at 113). Further, waiting for
post-conviction relief may result in some prejudice to
Azano by "weakening of memories and aging of
evidence," as well as time Azano will be incarcerated
waiting for the claims to be heard. Id. at 897. Still,
given the considerations weighing against Azano, we
cannot say the district court abused its discretion.
Azano also requests that we review his ineffective
assistance of counsel claim directly on appeal.
Generally, we will not entertain ineffective assistance
of counsel claims on direct appeal because the record
is often undeveloped "as to what counsel did, why it
was done, and what, if any, prejudice resulted."
United States v. Andrews, 75 F.3d 552, 557 (9th Cir.
1996) (quoting United States v. Rewald, 889 F.2d 836,
859 (9th Cir. 1989)). "This is so even if the record
contains some indication of deficiencies in counsel's

App I-48
performance." Massaro v. United States, 538 U.S. 500,
504, 123 S. Ct. 1690, 155 L. Ed. 2d 714 (2003). We will
consider an ineffective assistance claim on direct
appeal only "where the record is sufficiently
developed to permit review and determination of the
issue, or the legal representation is so inadequate
that it obviously denies a defendant his Sixth
Amendment right to counsel." Steele, 733 F.3d at 897
(quoting United States v. Rivera-Sanchez, 222 F.3d
1057, 1060 (9th Cir. 2000)). Neither circumstance
applies here.
B.
Singh argues that the district court abused its
discretion in denying his motion to sever
his [**59] trial from all defendants except Azano.
However, "[i]t is well settled that the motion to sever
'must be renewed at the close of evidence or it is
waived.'" United States v. Alvarez, 358 F.3d 1194,
1206 (9th Cir. 2004) (quoting United States v.
Restrepo, 930 F.2d 705, 711 (9th Cir. 1991)). The
record does not show that Singh's counsel renewed
the motion, nor does Singh proffer any reason as to
why such waiver should not apply. Accordingly, we
find that Singh waived this argument.
Relatedly, Singh argues that the joint trial
compromised his due process rights [*1061] due to
the "irresponsible actions of Azano's attorney." Singh
points us to People v. Estrada, 63 Cal. App. 4th 1090,
75 Cal. Rptr. 2d 17 (Ct. App. 1998), as authority for
such a claim. In Estrada, the state court found that
co-defendant's counsel improperly suggested that the
defendant was more culpable than his client. Id. at 23.
Even if we were to recognize that such conduct gives

App I-49
rise to a due process violation, the record does not
show that Azano's counsel made any similar
suggestion here.
CONCLUSION
We reverse Azano's and Singh's convictions under
count thirty-seven for falsification of campaign
records, finding the evidence insufficient to support
all material elements. We affirm all other convictions.
We vacate Azano's and Singh's sentences and remand
for re-sentencing in accordance with this opinion.
AFFIRMED IN PART, REVERSED [**60] IN
PART,
and
REMANDED
FOR
RESENTENCING.

Appendix II
FILED
UNITED STATES COURT OF APPEALS
JUL 30 2019
FOR THE NINTH CIRCUIT
UNITED STATES OF
AMERICA,
Plaintiff-Appellee,
v.
RAVNEET SINGH, AKA
Ravi Singh,
Defendant-Appellant.

MOLLY C.
DWYER, CLERK
U.S. COURT OF
APPEALS

No.
17-50337

D.C. No.
3:14-cr-00388-MMA-2
Southern District of
California, San Diego
ORDER

UNITED STATES OF
AMERICA,
Plaintiff-Appellee,
No.

v.
JOSE SUSUMO AZANO
MATSURA, AKA Mr. A, AKA
Mr. Lambo,

17-50387

D.C. No.
3:14-cr-00388-MMA-1

Defendant-Appellant.
Before: M. SMITH, WATFORD, and HURWITZ, Circuit
Judges.
The panel has unanimously voted to deny Appellants
Singh’s and Azano’s petitions for panel rehearing. The full
court has been advised of Appellants’ petitions for rehearing
en banc, and no judge of the court has requested a vote on
either. Fed. R. App. P. 35. The petitions for rehearing and
rehearing en banc (Dkt. 84, 85) are DENIED.

